              U.S. Department of Commerce
                  Office of Inspector General



Semiannual Report to Congress
                            September 2012
OFFICE OF
INSPECTOR GENERAL




                                             Inspector General


                                                  Deputy
                      Ofﬁce of
                                             Inspector General                      Ofﬁce of Counsel
                    Administration




                         Ofﬁce of Audit                                          Ofﬁce of
                         and Evaluation                                       Investigations




Oversight Areas                                         OIG Main Number
Ofﬁce of the Secretary                                  Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.4661
Bureau of Economic Analysis
                                                        OIG Hotline
Bureau of Industry and Security
                                                        Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.2495
U.S. Census Bureau                                                                                                              or 800.424.5197
Economic Development Administration
Economics and Statistics Administration                 TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
International Trade Administration                                                                                                  or 800.854.8407
Minority Business Development Agency
                                                        E-mail. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .hotline@oig.doc.gov
National Institute of Standards and Technology
National Oceanic and Atmospheric Administration
                                                        More Information
National Technical Information Service                  Visit www.oig.doc.gov to learn more about our activities,
National Telecommunications and                         download reports and testimony, and subscribe to
   Information Administration                           our RSS feed for website updates. E-mail website
U.S. Patent and Trademark Ofﬁce                         comments to oigweb@oig.doc.gov.
               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                             September 2012
d                  Office of Inspector General | Semiannual Report to Congress | September 2012




    TABLE OF 

    CONTENTS




    01 FROM THE INSPECTOR GENERAL
    02 TOP MANAGEMENT CHALLENGES FACING THE DEPARTMENT
    06 OVERSIGHT AREAS

    06 DEPARTMENT-WIDE MANAGEMENT

    10 ECONOMIC DEVELOPMENT ADMINISTRATION

    12 ECONOMICS AND STATISTICS ADMINISTRATION

    16 INTERNATIONAL TRADE ADMINISTRATION

    18 NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    20 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    24 NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

    26 UNITED STATES PATENT AND TRADEMARK OFFICE

    30 AMERICAN RECOVERY AND REINVESTMENT ACT
       NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
       NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

    36   WORK IN PROGRESS
    40   STATISTICAL DATA
    50   REPORTING REQUIREMENTS
    52   ACRONYMS AND ABBREVIATIONS
                                                                                        1




FROM THE
INSPECTOR GENERAL


I am pleased to present the Department of Commerce Ofﬁce of Inspector General’s
Semiannual Report to Congress for the 6 months ending September 30, 2012.

This report summarizes work we initiated and completed during this semiannual
period on a number of critical departmental activities. Over the past 6 months, our
ofﬁce issued 11 audit and evaluation reports addressing programs overseen by
the Economics and Statistics Administration, International Trade Administration,
National Institute of Standards and Technology, National Oceanic and Atmospheric
Administration, National Telecommunications and Information Administration, United
States Patent and Trademark Ofﬁce, and the Department itself.

During the ﬁnal months of this reporting period, we initiated our annual review to
identify the top management challenges facing the Department in ﬁscal year 2013,
a summary of which appears on page 2. These challenges will be issued in a
separate report and included in the Department’s November 2012 Performance and
Accountability Report and the March 2013 Semiannual Report to Congress. We
will work closely with the Department and with Congress in the months ahead to
meet these and other challenges facing Commerce as it fulﬁlls its complex mission.

We thank former Secretary John Bryson, Acting Secretary Rebecca Blank, senior
ofﬁcials throughout the Department, and members of Congress and their staffs for
their support of our work during this reporting period and for their receptiveness to
our recommendations for improving Commerce programs and operations.




TODD J. ZINSER

2   Office of Inspector General | Semiannual Report to Congress | September 2012




    TOP MANAGEMENT
    CHALLENGES FACING
    THE DEPARTMENT

    The Reports Consolidation Act of 2000 requires inspectors general at major
    departments to issue an annual report highlighting what they consider, from
    their oversight perspective, the most signiﬁcant management challenges
    facing their departments. On May 31, 2012, OIG issued to the Department
    and its agencies a memorandum that previewed what OIG would discuss
    in further detail in the upcoming ﬁscal year (FY) 2013 Top Management
    Challenges Facing the Department of Commerce report. On September 28,
    2012, OIG issued the draft FY 2013 Top Management Challenges Facing
    the Department of Commerce report to the Acting Secretary for response.
    We identiﬁed ﬁve major challenges that represent cross-cutting issues
    with a focus on the President’s most important goals and longstanding
    departmental management concerns.


    1. STIMULATE ECONOMIC GROWTH IN KEY INDUSTRIES, INCREASE EXPORTS,
       AND ENHANCE STEWARDSHIP OF MARINE FISHERIES

    The Department is at the center of the federal government’s efforts to stimulate economic and
    job growth in key industries and promote exports, while at the same time regulating exports
    and maintaining the delicate balance between promoting and regulating the commercial use
    of marine ﬁsheries. These efforts require the Department to work effectively with interagency
    partners and the private sector as well as to marshal and integrate Commerce resources. We
    have identiﬁed three areas for management attention:


    •   stimulate economic growth in manufacturing, intellectual property, and wireless industries
    •   promote and regulate exports
    •   protect and promote marine ﬁsheries

    2. INCREASE OVERSIGHT OF RESOURCES ENTRUSTED BY THE PUBLIC AND
       INVEST FOR LONG-TERM BENEFITS

    The Joint Select Committee on Deﬁcit Reduction was tasked with seeking $1.5 trillion in
    government-wide savings over the next 10 years. The Committee did not agree on spending
    reductions, resulting in a potential sequestration that will trigger across-the-board budget cuts
    beginning in January 2013. Departmental programs will be deeply affected. As the Department
    prepares for this extended period of tighter budgets and decreased spending, it is more
    important than ever to understand the risks associated with making trade-offs in allocating
    resources between the implementation of programs and the oversight of those programs.
                                                             Top Management Challenges Facing the Department   3




Also, after experiencing signiﬁcant cost increases in the last decennial (from $8.2 billion to
$12.8 billion between 2000 and 2010 decennials), the Census Bureau—a Departmental
component—has vowed to contain cost of the 2020 decennial by making critical design
decisions by the end of FY 2014. However, it has already encountered signiﬁcant challenges
in achieving this goal. While the nation is facing signiﬁcant ﬁnancial hardship, the Department
and Census Bureau simply cannot afford to repeat the cost growth experienced over prior
decennials. We have identiﬁed three areas for management attention during a period of funding
uncertainty:


• 	 increase internal controls and oversight of Departmental operations under a
      constrained budget
•   	 invest for efﬁciencies and long-term beneﬁts
•   	 implement bold design changes to contain 2020 decennial costs while maintaining
      enumeration quality

3. 	STRENGTHEN SECURITY AND INVESTMENTS IN INFORMATION TECHNOLOGY

In FY 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent of its
annual budget and one of the highest percentages devoted to IT among all civilian agencies.
The Department and its constituent bureaus rely on IT to support major mission activities, such
as producing the constitutionally mandated decennial census; releasing vital economic statistics
(e.g., the gross domestic product and consumer spending); granting patents and trademarks;
issuing severe weather alerts; and operating weather satellites. However, we have identiﬁed
major concerns in the Department’s IT security posture and fragmented IT governance. While
the Department’s Chief Information Ofﬁcer has taken steps to strengthen IT governance, we
continue to ﬁnd signiﬁcant security vulnerabilities in bureau systems, which could lead, and
already have led, to service disruptions and loss of sensitive information. We have identiﬁed four
areas for management attention:


• 	 continue improving the Department’s IT security posture by addressing persistent security
      weaknesses
•   	 develop resilient incident response and recovery capabilities with increased monitoring of
      Internet trafﬁc
•   	 manage the Department’s IT portfolio with enhanced governance structure
•   	 strengthen oversight of IT investments

4. 	IMPLEMENT FRAMEWORK FOR ACQUISITION PROJECT MANAGEMENT AND
    IMPROVE CONTRACTS OVERSIGHT

In FY 2011, the Department obligated approximately $2.4 billion on contracts for goods and
services, including satellite acquisitions, intellectual property protection, broadband technology
opportunities, management of coastal and ocean resources, information technology, and
construction and facilities management. To maximize these funds, the Department needs
to strengthen its acquisition and contract management practices. While it has made some
progress—such as reorganizing the Ofﬁce of Acquisition Management to more directly address
major acquisition initiatives and implementing an Acquisition Center of Excellence, which will
consolidate acquisition support for the Department’s smaller bureaus, our audits continue to ﬁnd
weaknesses in how the Department plans, administers, and oversees its contracts. We have
identiﬁed four areas for management attention:
4   Office of Inspector General | Semiannual Report to Congress | September 2012




    •   implementing the planned framework for acquisition project management
    •   overseeing high-risk contracts
    •   maintaining an acquisition workforce that holds bureau ofﬁcials accountable
    •   implementing an effective suspension and debarment program

    5. REDUCE RISKS OF COST OVERRUNS, SCHEDULE DELAYS, AND COVERAGE
       GAPS FOR NOAA’S SATELLITE PROGRAMS

    Managing risks in the acquisition and development of the next generation of environmental
    satellites is a continuing challenge for the Department. The two most prominent programs, the
    Joint Polar Satellite System (JPSS) and the Geostationary Operational Environmental Satellite-R
    series (GOES-R), together account for one-third of NOAA’s FY 2013 budget request. They
    are also the largest investments in the Department, comprising nearly 20 percent of the
    Department’s budget. The satellites will provide data and imagery for weather forecasting—
    including severe-storm tracking and alerting—and the study of climate change. Operating
    environmental satellites and weather forecasting are designated as primary mission-essential
    functions of the Department because they help lead and sustain the nation in the event of a
    catastrophe. Yet, because of cost overruns, schedule delays, and the aging of NOAA’s current
    constellation of satellites, NOAA is confronting coverage gaps for these critical assets.

    Strong program management and close oversight of these programs are needed to manage
    risks that inevitably lead to cost overruns, schedule delays, and coverage gaps for the critical
    capabilities these programs will provide. Based on our work with these programs, we have
    identiﬁed four areas for management attention:


    •   communicating with stakeholders to deﬁne JPSS capabilities, schedule, and cost baselines
    •   ensuring adequate leadership and governance structure over JPSS development
    •   developing a plan to support NOAA weather forecasting capabilities during coverage gaps
    •   reducing program risks associated with GOES-R development
6   Office of Inspector General | Semiannual Report to Congress | September 2012




    DEPARTMENT-WIDE MANAGEMENT




    The U.S. Department of Commerce works to help American
    companies become more innovative and successful at home and more
    competitive abroad. It creates the conditions for economic growth and
    opportunity by promoting innovation, entrepreneurship, competitiveness,
    and stewardship.

    The Department accomplishes its mission by providing national and
    local weather services; developing key economic and demographic data
    (including the decennial census); advancing technological and scientiﬁc
    innovation; protecting and restoring environmental resources; promoting
    international trade; and supporting local, regional, and national economic
    development. These activities affect U.S. business and industry daily and
    play a critical role in the nation’s economic well-being.
                                                                                        Department-Wide Management   7




COMPLETED WORKS (BY OVERSIGHT AREA)

During this reporting period, OIG completed 19 audits and evaluations and 2 congressional
testimonies.




              5
                       4
                                    3
                                                         2

                                                                  1            1                1           1
                  a




                           b




                                       A




                                                             e




                                                                  A




                                                                               A




                                                                                                A




                                                                                                            O
               ct




                                                         id
                                      A




                                                                 ED




                                                                              IT




                                                                                             TI




                                                                                                          PT
                       A
              A




                                   O




                                                         w
                      ES




                                                                                            N
                                  N




                                                     t-
          ry




                                                    en
         ve




                                                tm
     co




                                               ar
    Re




                                           ep
                                           D




a Of the 5 Recovery Act-related works, 1 was a Department-wide project; 2 concerned NTIA; 1 was IG testimony;
  and 1 concerned NIST.
b The ESA completed works concern the Census Bureau.




NONFEDERAL AUDIT RESULTS FOR THE 6-MONTH PERIOD ENDING JUNE 30, 2012
(OIG-12-034-M)

Nonfederal entities (states, local governments, tribes, colleges and universities, and nonproﬁt
organizations) that expend $500,000 or more in a year of federal awards are required by the
Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their federal
awards. During the 6-month period ending June 30, 2012, OIG reviewed 176 reports by
recipients of grants from EDA, ITA, NIST, NOAA, NTIA, and multiple bureaus. We identiﬁed
approximately $784,000 in questioned costs in these single audits. Our report contained
an analysis of ﬁndings identiﬁed in single audit reports, noted trends in the types of ﬁndings
reported, and summarized ﬁndings by Departmental program.

Commercial organizations that receive federal funds from the Department are subject to award
requirements as stipulated in the award document. If an award does not have speciﬁc audit
guidelines incorporated into the award, OIG auditors follow the requirements for a program-
speciﬁc audit as described in Ofﬁce of Management and Budget (OMB) Circular A-133, Audits
of States, Local Governments, and Non-Proﬁt Organizations, section 235. During the reporting
period, OIG analyzed 114 audits submitted for awards to commercial and other organizations
for NTIA’s Broadband Technology Opportunities Program (BTOP), NIST’s Advanced Technology
Program (ATP), and NIST’s Technology Innovation Program (TIP). We identiﬁed approximately
$426,028 in questioned costs for these program-speciﬁc audits.
8   Office of Inspector General | Semiannual Report to Congress | September 2012




    AUDITS OF COMMERCE FUND RECIPIENTS BY INDEPENDENT AUDITORS
    (REVIEWED BY OIG DURING THE 6 MONTHS ENDING SEPTEMBER 30, 2012)

    In addition to undergoing OIG-performed audits, certain recipients of Department of Commerce
    ﬁnancial assistance are periodically examined by state and local government auditors and
    by independent public accountants. OMB Circular A-133, sets forth audit requirements for
    most of these audits. For-proﬁt organizations, including those that receive TIP funds, are
    audited in accordance with Government Auditing Standards. In addition, organizations that
    received ATP funds are audited in accordance with NIST Program-Speciﬁc Audit Guidelines
    for ATP Cooperative Agreements, and organizations that received BTOP funds are audited
    in accordance with the Program-Speciﬁc Audit Guidelines for the Broadband Technology
    Opportunities Program, issued by the Department.

    We examined 188 audit reports during this semiannual period to determine whether they
    contained audit ﬁndings related to Departmental programs. For 110 of these reports, the
    Department acts as an oversight agency and monitors the audited entity’s compliance with OMB
    Circular A-133, Government Auditing Standards, or program-speciﬁc reporting requirements.
    The other 78 reports cover entities for which other federal agencies have oversight responsibility.
    We identiﬁed 22 reports with material ﬁndings related to the Department.


     Report Category                            OMB A-133 Audits              Program-Speciﬁc                Total

                                                                                   Audits


     Pending Review (April 1, 2012)                      16                           37                       53

     Received                                           132                           28                     160

     Examined                                           125                           63                     188

     Pending Review                                      23                            2                       25
     (September 30, 2012)


    The following table shows a breakdown by bureau of approximately $914 million in Commerce
    funds audited.


     Agency                                                                                                   Funds


     Economic Development Administration                                                                 $ 26,377,193

     Minority Business Development Agency                                                                      247,860

     National Institute of Standards and Technologya                                                       69,837,826

     National Oceanic and Atmospheric Administration                                                       56,071,052

     National Telecommunications and Information Administrationb                                          130,926,994

     Multi-bureau                                                                                         630,481,696
     Total                                                                                              $913,942,621

    a Includes   $58,423,894 in program-speciﬁc audits; A-133 audits account for the remaining amount of $11,413,932.
    b Includes   $45,299,457 in program-speciﬁc audits; A-133 audits account for the remaining amount of $85,627,537.


    We identiﬁed a total of $2,290,668 in the federal share of questioned costs and $213,758 in
    funds to be put to better use. In most reports, the subject programs were not considered major
                                                                            Department-Wide Management   9




programs; thus, the audits involved limited transaction and compliance testing against laws,
regulations, and grant terms and conditions. The 22 reports with Departmental ﬁndings are listed
in table 7-a on page 48.

BODY ARMOR MANUFACTURER SETTLES IN DEFECTIVE MERCHANDISE CASE

In April 2012, two former executives of Second Chance Body Armor, Inc., (SCBA) agreed
to pay $50,000 each to settle individual civil claims brought by the government as the result
of an investigation into the manufacture and sale of bulletproof vests containing Zylon. In July
2012, the U.S. Bankruptcy Court, Western District of Michigan, ordered SCBA Liquidation,
Inc., (formerly known as SCBA) to pay $3,564,883.84 to settle civil claims brought against
SCBA by the government as part of this same investigation. These settlements are part of a
larger investigation of the body armor industry’s use of Zylon ballistic material in body armor.
The companies manufactured and sold Zylon bulletproof vests despite possessing information
showing that the Zylon materials degraded quickly over time and were not suitable for ballistic
use. The SCBA vests were purchased by the federal government and by various state, local,
and tribal law enforcement agencies that were partially reimbursed by the United States under
the U.S. Department of Justice’s (DOJ’s) Bulletproof Vest Partnership Grant Program. This
settlement was the result of a joint investigation involving DOJ and investigative units from our
ofﬁce and eight other federal departments and agencies. Our ofﬁce coordinated with NIST
scientists for expert support at various phases of this investigation.

ADDITIONAL MULTIMILLION DOLLAR GUILTY PLEAS IN PRICE-FIXING CASE

In September 2012, Yamato Global Logistics Japan Co. entered into a plea agreement in which
it agreed to pay a criminal ﬁne of $2,326,774 and agreed to cooperate with the ongoing antitrust
investigation. Still subject to court approval, this agreement is the latest of several previously
reported (September 2011, page 9; March 2012, page 23) that resulted from an investigation
into Sherman Antitrust Act violations, in which companies conspired to ﬁx certain fees in the
provision of freight forwarding services for air cargo shipments from Europe to the United States
between 2002 and 2007.

In November 2011, four companies—EGL Inc., Geologistics, Kuhne Nagel, and Panalpina—had
their plea agreements accepted by a federal judge. The four agreed to pay criminal ﬁnes totaling
$26,986,969 and special assessments totaling $4,400. In December 2011, two additional
companies—BAX Global and Schenker AG, Inc.—had their plea agreements accepted by a
federal judge and agreed to pay criminal ﬁnes totaling $23,281,441 and special assessments
totaling $2,400. All of these plea agreements were the result of an ongoing joint investigation
into the freight forwarding industry by the DOJ’s Antitrust Division–National Criminal Enforcement
Section, the Federal Bureau of Investigation’s (FBI’s) Washington ﬁeld ofﬁce, and our ofﬁce.

FORMER HUMAN RESOURCE EMPLOYEES CONSPIRED TO AVOID WAGE
GARNISHMENT

Two former Ofﬁce of Human Resources Management (OHRM) employees conspired to avoid
a judicially ordered wage garnishment of one of the employees. Our investigation found that
one of the employees intercepted and diverted agency notiﬁcation of the garnishment to the
employee who was the subject of the garnishment. That employee then created a fraudulent
letter on agency letterhead stating the employee was no longer employed by the Department
and submitted it to the collection agency. During interviews, both employees admitted their
misconduct. One of the employees resigned and the other was terminated.
10   Office of Inspector General | Semiannual Report to Congress | September 2012




     ECONOMIC DEVELOPMENT
     ADMINISTRATION



     The U.S. Economic Development Administration’s mission is to
     lead the federal economic development agenda by promoting innovation
     and competitiveness, preparing American regions for growth and
     success in the worldwide economy. Its investment policy is designed
     to establish a foundation for sustainable job growth and the building
     of durable regional economies throughout the United States. This
     foundation builds upon two key economic drivers, innovation and
     regional collaboration.
                                                                     Economic Development Administration   11




REVIEW OF TRADE ADJUSTMENT ASSISTANCE CENTER (TAAC) ADMINISTRATION
COSTS (OIG-12-025-M)

We provided the House and Senate Committees on Appropriations with information on the
reasonableness of administrative costs charged by TAACs as part of the Trade Adjustment
Assistance for Firms program administered by EDA. The information was requested in the
House Committee Report that accompanied the FY 2012 Commerce, Justice, Science, and
Related Agencies Appropriations bill. The TAA program exists to provide technical assistance to
U.S. ﬁrms experiencing a decline in sales and employment, resulting in part from an increase in
imports of like or directly competitive articles, so that they may become more competitive in the
global marketplace.

As part of the review, we obtained the most recent available expenditure data from 3 of the
11 TAACs: New England, New York State, and Western. Our review focused on the use of
federal funds provided by EDA and was limited to an analysis and comparison of expenses
among the TAACs as well as interviews with EDA staff.

We did not determine that the level of administrative costs of the three TAACs were
unreasonable, based on our recalculations of EDA-provided data. However, we noted that
EDA cannot readily determine the true TAAC program activity costs. Improved and more
consistent tracking of expenses by activity from the TAACs would allow EDA to better monitor
the composition of expenses for each TAAC and determine whether they are reasonable. We
also noted that EDA has not considered options beyond existing TAACs for executing the TAA
program. EDA should periodically determine whether there are other organizations that can
achieve the program’s desired results more efﬁciently or effectively.
12   Office of Inspector General | Semiannual Report to Congress | September 2012




     ECONOMICS AND STATISTICS
     ADMINISTRATION



     The Economics and Statistics Administration analyzes economic
     activity, formulates policy options, and produces a major share of the
     U.S. government’s economic and demographic statistics. ESA has one
     constituent operating unit and two primary operating units:

     Ofﬁce of the Chief Economist—Provides the Department with
     expertise on key economic forces affecting the U.S. economy,
     delivering timely, relevant, and credible economic analysis and advice to
     government leaders and the public.

     Census Bureau—Publishes a wide variety of statistical data about the
     nation’s people and economy, conducting approximately 200 annual
     surveys in addition to the decennial census of the U.S. population and
     the quinquennial census of industry.

     Bureau of Economic Analysis—Prepares, develops, and interprets
     national income and product accounts (summarized by the gross
     domestic product), as well as aggregate measures of international,
     regional, and state economic activity.
                                                                          Economics and Statistics Administration                        13




2020 CENSUS PLANNING: DELAYS WITH 2010 CENSUS RESEARCH STUDIES MAY
ADVERSELY IMPACT THE 2020 DECENNIAL CENSUS (OIG-12-023-I)

For the 2020 Census, the Census Bureau has reorganized to improve its research and testing, as
well as develop more cost-effective program processes and methods. (See ﬁgure below for 2020
Census research tracks.) The Bureau is also working to improve its cost estimation process for the
next decennial census; it will update estimates as research and testing progress, so that budget
requests align with decennial census requirements.

The Census Bureau recognizes that it must fundamentally change its decennial design to improve the
enumeration quality of the 2020 Census and contain life cycle costs. More speciﬁcally, the Bureau
should reassess how it updates its address list, enumerates households, and utilizes ﬁeld and IT
infrastructure in this critical effort. The Census Program Evaluation
                                                                       Five Major Research Tracks
and Experiments (CPEX) program provides lessons learned
                                                                       for the 2020 Census Design
from the previous decennial that inform the next design; however,
delays in the completion of 2010 CPEX studies could adversely
impact its effort to improve the 2020 Census. Further, the 2020
Census requires a comprehensive risk management plan, which                                    Reengineered
                                                                                                     Field
the Bureau is working to ﬁnalize and integrate with its enterprise                              Infrastructure
risk management program and the Department’s risk management
efforts, including reviews of IT and non-IT major programs.                Expanded,                                    Reengineered
                                                                                Automated,                               Information
                                                                                and Tailored                             Technology
                                                                                 Response                               Infrastructure
We recommended to the director of the Census Bureau the
following actions (which, since December 2011, the Bureau has
already begun implementing):                                                                               2012
                                                                                                          Census
                                                                                                          Design
• 	 prioritize further the 2010 CPEX studies, and focus program
      resources, to ensure that the most critical studies affecting the
      cost and quality of the 2020 Census are completed; and
                                                                                         Using                      Continual
•   	 improve the transparency of the 2010 CPEX program by                            Administrative                Address
      posting study plans, expected publication dates for the 109                      Records for                   Frame
                                                                                      Non-response                  Updating
      studies, and ﬁnal reports online as soon as practicable so that
      stakeholders can review and monitor the Bureau’s progress in
      redesigning the 2020 Census.                                           Source: U.S. Census Bureau


HIGH-QUALITY MAPS AND ACCURATE ADDRESSES ARE NEEDED TO ACHIEVE
CENSUS 2020 COST-SAVING GOALS (OIG-12-024-I)

The Census Bureau maintains a database containing a complete list of all living quarters (the
master address ﬁle, or MAF) and geospatial data (the topologically integrated geographic
encoding and referencing system, or TIGER) of the nation to use in all demographic and
decennial programs. The Bureau’s method of collecting and tabulating decennial census data is
to link (geocode) MAF addresses to TIGER.

The 2010 geographic initiative’s efforts to produce an adequate measure to assess MAF/TIGER
database (MTdb) quality fell short. In addition, the program’s goal of updating address and
map information from tribal, state, county, and local government partners was not fully realized.
Both of these goals must be met to implement a 2020 decennial census address canvassing
operation with reduced costs.
14                          Office of Inspector General | Semiannual Report to Congress | September 2012




                            We recommended that the Census Bureau


                            • 	 develop an MTdb measure for determining address list quality at a low level of geography
                                  that (a) provides a fair and equal opportunity for targeting selection, (b) drives selection and
                                  planning decisions, and (c) is well-documented and veriﬁable;
                            •   	 work with the Department to determine the feasibility of improving methods of sharing MTdb
                                  information throughout the decade with governmental entities (partners) to create a uniform,
                                  national address list;
                            •   	 investigate and remedy the exclusion of 500,000 ungeocoded address records, which had
                                  been designated as valid U.S. Postal Service delivery addresses, from the 2010 Census;
                            •   	 conduct the necessary research, develop a proven methodology, and allocate the necessary
                                  funds to continuously reduce the number of ungeocoded records throughout the decade;
                                  and
                            •   	 develop and implement quality indicator tools, including use of administrative records, to
                                  ensure that updates to the MAF are accurate.

                                                                 CONGRESSIONAL TESTIMONY (OIG-12-030-T)
“The next decennial calls for new design
elements and meticulous planning and 	                           On July 18, 2012, the Inspector General testiﬁed about lessons
                                                                 learned from the 2010 decennial and methods the Census
testing—along with unprecedented
                                                                 Bureau could employ to design a cost-effective and accurate
transparency on the part of the Bureau,                          enumeration in 2020. His testimony focused on three areas:
including early and continuous 	                                 important challenges encountered during the 2010 decennial;
engagement with key stakeholders.”	                              changes the Census Bureau and its stakeholders expect to
                                                                 improve the 2020 decennial; and key issues for the Bureau, the
                                                                 Department, and Congress to consider as the Bureau works to
IG testimony before a Senate Homeland Security and
                                                                 bring about these changes.
Governmental Affairs Subcommittee, July 18, 2012

                                                           The Inspector General also recommended that Congress apply
                                                           early and sustained attention to the Bureau’s development of
                            design alternatives, adaptation of strategy, and development of budgets to support the 2020
                            decennial. This attention includes monitoring program developments, developing any necessary
                            legislation to enable a reengineered census, and support for early and mid-decade research and
                            testing requirements. Without this attention and oversight, he said that there will be signiﬁcantly
                            greater risk to the Bureau’s ability to contain costs.

                            LETTER TO THE SENATE APPROPRIATIONS SUBCOMMITTEE REGARDING THE
                            AMERICAN COMMUNITY SURVEY (OIG-12-033-M)

                            On August 20, 2012, OIG addressed the chair and ranking member of the Subcommittee on
                            Commerce, Justice, Science, and Related Agencies, who had requested (a) the status of 2020
                            decennial census planning and (b) OIG insight on the impact of recent proposals concerning the
                            Census Bureau’s American Community Survey (ACS) program. The letter expanded on highlights
                            of the Inspector General’s July 18, 2012, testimony before the Senate Subcommittee on Federal
                            Financial Management, Government Information, Federal Services, and International Security
                            about planning for the 2020 Census.

                            Regarding the status of 2020 decennial planning, OIG reiterated challenges that complicated the
                            2010 decennial and call for fundamental changes to 2020 planning and execution:
                                                                    Economics and Statistics Administration   15




• 	 Departmental oversight, especially concerning the Census Bureau’s data collection and IT
      infrastructure projects
•   	 decennial planning within a constrained budget, which makes providing the Department and
      Congress reliable and transparent budget requests a top Census Bureau priority
•   	 maintaining continuity of leadership over the long decennial planning cycle
•   	 modernizing the 2020 decennial, to make the census more cost-effective

Regarding the ACS, OIG highlighted relevant recommendations from its June 27, 2011, ﬁnal
quarterly report to Congress on the 2010 Census. Since the ACS has replaced the long-
form decennial survey, OIG suggested that the Census Bureau use the ACS to test content
and design, response options (such as the Internet), administrative records use, and new
data collection procedures and methodologies. OIG also recommended leveraging ACS and
other Bureau survey operations to facilitate the introduction of new technologies for the 2020
decennial. Eliminating the ACS would have a signiﬁcant impact on important local and federal
programs. If ACS data are no longer collected, Congress will need to address (a) what federally
collected information will be available for businesses, governments, and other users; (b) whether
the long form will need to be reinstated for the next decennial census; and (c) whether reliable
estimates could be created from other data sources. If the ACS becomes voluntary, the survey
would result in lower-quality data and likely experience increased production costs. OIG hopes
that these recommendations and ﬁndings provide additional insight and direction for the future of
the decennial census and the ACS.


FORMER CENSUS BUREAU EMPLOYEE SENTENCED TO 23 YEARS FOR
ATTEMPTED MURDER

In June 2012, a Census Bureau employee was sentenced to 23 years in state prison for the
attempted murder of the husband of another Bureau employee. Our investigation found the
former employee used Bureau computers to facilitate a complex scheme to make the planned
murder appear to be a suicide. We provided substantial support, in the form of computer
forensics requested by the Montgomery County Police Department, and testiﬁed at the trial. The
former employee was terminated by the Bureau in July 2012.
16   Office of Inspector General | Semiannual Report to Congress | September 2012




     INTERNATIONAL TRADE
     ADMINISTRATION



     The International Trade Administration strengthens the
     competitiveness of U.S. industry, promotes trade and investment, and
     ensures fair trade through the rigorous enforcement of our trade laws
     and agreements. ITA works to improve the global business environment
     and helps U.S. organizations compete at home and abroad. ITA is
     organized into four distinct but complementary business units:

     U.S. and Foreign Commercial Service—Promotes U.S. exports,
     particularly by small- and medium-sized enterprises, and provides
     commercial diplomacy support for U.S. business interests around the
     world.

     Manufacturing and Services—Strengthens U.S. competitiveness
     abroad by helping shape industry-speciﬁc trade policy.

     Market Access and Compliance—Assists U.S. companies
     and helps create trade opportunities through the removal of market
     access barriers.

     Import Administration—Enforces U.S. trade laws and agreements
     to prevent unfairly traded imports and to safeguard the competitive
     strength of U.S. businesses.
                                                                          International Trade Administration                  17




IMPROVEMENTS ARE NEEDED TO STRENGTHEN ITA’S
INFORMATION TECHNOLOGY SECURITY PROGRAM                                   Federal Information Security Management
(OIG-12-037-A)
                                                                          Act of 2002 (Title III, P.L. 107-347)
To fulﬁll its critical missions, ITA heavily relies on information
technology, particularly the Internet, to conduct its business,           The Federal Information Security Management Act of
and inevitably faces greater cybersecurity risks. In recent years,        2002 (FISMA) requires agencies to secure systems
ITA has become a frequent target of cyber attacks. In order to            through the use of cost-effective management,
minimize the serious damage caused by cyber attacks, ITA has              operational, and technical controls. The goal is to
taken action such as consolidating Internet access through a              provide adequate security commensurate with the risk
centralized service.                                                      and extent of harm resulting from the loss, misuse, or
                                                                          unauthorized access to—or modiﬁcation of—information
                                                                          collected or maintained by, or on behalf of, an agency.
Our FISMA audit found weaknesses in the six ITA systems we
reviewed, including inadequate security categorization that               In addition, FISMA requires inspectors general to
may affect protection against critical information and security           evaluate agencies’ information security programs
control deﬁciencies that increase the likelihood of a successful          and practices by assessing a representative subset
cyber attack. The security control deﬁciencies included (a)               of agency systems. The results are reported to the
deﬁciencies with vulnerability scanning and patch management,             Ofﬁce of Management and Budget, the Department of
(b) weaknesses in securing databases, (c) the presence of                 Homeland Security, and Congress annually.
unauthorized software and use of unauthorized removable media,
and (d) risks related to network implementation.

We recommended that the Under Secretary of Commerce for International Trade

• 	 ensure that system owners and appropriate ITA ofﬁcials collaborate to identify and categorize
      all information processed, stored, or transmitted by each system and categorize each system
      accordingly;
•   	 mitigate the remaining vulnerabilities identiﬁed by our vulnerability scan assessments;
•   	 improve the patch management process by making timely patches for all software products
      and coordinating within ITA to comprehensively identify and remediate software ﬂaws in a
      timely manner;
•   	 address and fully implement critical security settings in database conﬁguration checklists;
•   	 ensure that only authorized software and USB devices are used on both servers and
      workstations; and
•   	 strengthen the worldwide enterprise network’s security posture by reducing the threats
      associated with allowing network trafﬁc to ﬂow freely between all computing components.
18   Office of Inspector General | Semiannual Report to Congress | September 2012




     NATIONAL INSTITUTE OF STANDARDS
     AND TECHNOLOGY



     The National Institute of Standards and Technology promotes
     U.S. innovation and industrial competitiveness by advancing
     measurement science, standards, and technology in ways that enhance
     economic security and improve our quality of life. NIST carries out its
     mission via four cooperative programs:

     NIST Laboratories—Conduct research that advances the nation’s
     technology infrastructure and is needed by U.S. industry to continually
     improve products and services.

     Hollings Manufacturing Extension Partnership—Works with
     small- and mid-sized U.S. manufacturers through a nationwide network
     of 350 ﬁeld ofﬁces to help them create and retain jobs, expand into new
     markets and new products, increase proﬁts, and save time and money.

     Baldrige Performance Excellence Program—Promotes
     performance excellence among U.S. manufacturers, service companies,
     educational institutions, health care providers, and nonproﬁt
     organizations through outreach programs and the annual Malcolm
     Baldrige National Quality Award.

     Technology Innovation Program—Provides cost-shared awards
     to industry, universities, and consortia for research on potentially
     revolutionary technologies that address critical national and
     societal needs.
                                                                National Institute of Standards and Technology   19




NIST REVISES POLICIES AND PROCEDURES REGARDING
RECYCLABLE MATERIALS

OIG investigated allegations that NIST employees were taking recyclable materials from a NIST
facility and converting those materials into cash for their personal beneﬁt. The matter could not
be criminally prosecuted due to lax internal controls that prevented positive identiﬁcation of
the recyclable materials. Based upon our investigative ﬁndings, NIST implemented numerous
process improvement actions in the ordering, control, and recycling of job materials under the
purview of the NIST Plant Division.

CONTRACTOR ENTERS INTO CIVIL SETTLEMENT

In August 2012, a contractor for both NIST and NOAA agreed to pay $7.75 million to settle civil
claims brought against it by the government as the result of an investigation into its submission
of false claims for payment during the period from March 12, 2008, to March 11, 2011. In March
2008, the company pled guilty to knowingly submitting false or misleading export control ﬁlings
to the Department. Despite that plea agreement, the company certiﬁed several times over the
next 3 years that it had not been convicted of various criminal violations, including “making false
statements,” within the preceding 3 years. The company used false On-Line Representations
and Certiﬁcations Application (ORCA, a federal contracting database) certiﬁcations and similar
certiﬁcations to successfully bid on numerous government contracts. Previously, in September
2011, this same company had entered into a corporate compliance agreement for 3 years for
this same conduct. The contractor falsely obtained 276 contracts from 16 different agencies
during the period of the fraud. This settlement was the result of an investigation we conducted
jointly with the Air Force Ofﬁce of Special Investigations, FBI, and National Aeronautics and
Space Administration (NASA) OIG.
20   Office of Inspector General | Semiannual Report to Congress | September 2012




     NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION


     The National Oceanic and Atmospheric Administration mission
     is to understand and predict changes in Earth’s environment, as well as
     conserve and manage coastal and marine resources to meet our nation’s
     economic, social, and environmental needs. NOAA does this through six
     line ofﬁces:

     National Environmental Satellite, Data, and Information Service—
     Observes the environment by operating a national satellite system.

     National Marine Fisheries Service—Conducts a program of
     management, research, and services related to the protection and
     rational use of living marine resources.

     National Ocean Service—Provides products, services, and information
     to promote safe navigation, support coastal communities, sustain marine
     ecosystems, and mitigate coastal hazards.

     National Weather Service—Reports the weather of the United States
     and provides weather forecasts and warnings to the general public.

     Ofﬁce of Oceanic and Atmospheric Research—Conducts research
     related to the oceans and Great Lakes, the lower and upper atmosphere,
     space environment, and the Earth.

     Ofﬁce of Program Planning and Integration—Develops and
     coordinates NOAA’s strategic plan, supports organization-wide planning
     activities, guides managers and employees on program and performance
     management, and integrates policy analysis with decision making.
                                                                 National Oceanic and Atmospheric Administration   21




NOAA’S COST-PLUS-AWARD-FEE AND AWARD-TERM PROCESSES NEED TO
SUPPORT FEES AND EXTENSIONS (OIG-12-027-A)

In December 2007, the Ofﬁce of Management and Budget’s Ofﬁce of Federal Procurement Policy
issued guidance to chief acquisition ofﬁcers and senior procurement executives to review and
update their acquisition policies on the appropriate use of incentive contracts. As of June 2011,
NOAA had nine active cost-plus-award-fee (CPAF) and cost-plus-award-term (CPAT) contracts,
which provide ﬁnancial incentives based on contractor performance. These contracts had a
potential maximum value of approximately $1.6 billion, including approximately $87 million in
available award-fee pools and about $386 million in available award-term periods. While incentive
contracts can encourage excellence in contractor performance, they can be burdensome to
administer. These contracts also require effective monitoring to ensure that contract dollars are
spent wisely and that award fees and terms are justiﬁed based on contractor performance.

NOAA gave contractors high ratings, resulting in substantial award fees or extended contract
periods of performance, for eight of nine contracts. However, the ratings associated with four of
these contracts lacked sufﬁcient support to demonstrate that the contractor met or exceeded
the award-fee or award-term evaluation criteria. As a result, approximately $43.8 million was
paid in award fees or was approved for contract extensions without proper justiﬁcation.

We recommended that the Director of the NOAA Acquisition and Grants Ofﬁce

• 	 require performance monitors to provide narrative comments that identify speciﬁc strengths,
      weaknesses, and deﬁciencies to support assigned ratings;
•   	 develop award-fee and award-term incentive structures that encourage contractor
      excellence;
•   	 update the performance evaluation plans for two of the contracts to add more measurable
      award-fee criteria;
•   	 develop measurable and outcome-based criteria for assessing contractor performance for
      award fees and award-term extensions;
•   	 require a cost-beneﬁt analysis in decisions on CPAF and CPAT contracts;
•   	 establish clear division of responsibility for the evaluation team and prohibit the same ofﬁcial
      from performing multiple roles; and
•   	 develop controls over the maintenance of contract ﬁles and contract data to ensure more
      immediate availability and completeness of documentation for contract actions.


AUDIT OF THE JOINT POLAR SATELLITE SYSTEM: CONTINUING PROGRESS IN
ESTABLISHING CAPABILITIES, SCHEDULES, AND COSTS IS NEEDED TO MITIGATE
DATA GAPS (OIG-12-038-A)

NOAA, in partnership with the National Aeronautics and Space Administration (NASA), is
acquiring and developing the next generation of polar-orbiting satellites for its Joint Polar
Satellite System (JPSS). JPSS components currently envisioned for the system comprise the
Suomi National Polar-orbiting Partnership (Suomi NPP), JPSS-1, JPSS-2, and two free ﬂyer
satellites. NASA launched Suomi NPP on October 28, 2011.

In our September 2011 report Challenges Must Be Met to Minimize Gaps in Polar
Environmental Satellite Data (OIG-11-034-A), we addressed the need for JPSS baseline
capabilities, costs, and schedule to be ﬁnalized, because uncertain baselines translate to
uncertain budget requirements. In this audit, we further examined the determination of program
requirements and NOAA’s process for estimating the program’s life cycle cost. Our objectives
were to (1) assess the adequacy of JPSS formulation activities and (2) monitor the program’s
efforts to maintain continuity of polar satellite data.
22   Office of Inspector General | Semiannual Report to Congress | September 2012




     We found that NOAA must clearly deﬁne J PSS capabilities, schedule, and cost. By deﬁning
     the program and reﬁning its cost-estimating process (see ﬁgure below for the agency’s JPSS
     cost estimation process), NOAA can ensure that the estimate for JPSS is reliable. Also, the
     program’s artiﬁcially ﬂattened budget proﬁle needs to be independently validated. Further, Suomi
     NPP data validation and ground system improvements are needed for operational use. Finally, a
     10–16-month gap between Suomi NPP and JPSS-1 operational data is expected.


     Evaluation of NOAA’S Cost Estimating Process for JPSS

             Initiation                   Assessment                        Analysis                    Presentation
           and Research

              Deﬁne the                                                 Conduct sensitivity         Present to management
          estimate’s purpose            Deﬁne the program                   analysis                     for approval


             Develop the                   Determine the                Conduct risk and              Update the estimate
            estimating plan             estimating structure           uncertainty analysis             to reﬂect actual
                                                                                                         costs/changes


                                       Identify ground rules          Document the estimate
                                         and assumptions



                                          Obtain the data


                                       Develop point estimate
                                         and compare to an
                                     independent cost estimate



                                Generally consistant
                   Key:                                          Requires attention           Signiﬁcant challenge
                                 with best practice


     Source: OIG analysis of NOAA cost-estimating activities against GAO-deﬁned best practices



     We recommended that the Deputy Secretary for Operations ensure that

     • 	 sufﬁcient resources and attention are given to ﬁnalizing J PSS high-level requirements and
          completing system deﬁnition;
     • 	 the program’s acquisition strategy for JPSS-3 and JPSS-4 is determined, documented, and
           shared with the Department, OMB, and Congress;
     •   	 the National Environmental Satellite, Data, and Information Service (NESDIS) and the JPSS
           program quantify cost savings while determining how to efﬁciently process environmental
           data records;
     •   	 NESDIS determines whether an enterprise approach to developing and maintaining data
           products from its environmental satellites could achieve economies of scale;
     •   	 sufﬁcient resources and attention are given to permanently ﬁlling key management positions;
     •   	 a policy that requires major system acquisition programs to adhere to cost-estimating best
           practices is developed;
     •   	 cost-estimating best practices are more closely adhered to in the JPSS program and other
           major system acquisitions;
     •   	 an independent cost estimate adequately tests the viability of the program’s funding proﬁle;
           and
     •   	 stakeholders are sufﬁciently informed of unplanned schedule and capability trade-offs, if
           needed, to meet surges in effort necessary for launches.
                                                              National Oceanic and Atmospheric Administration                23




CONGRESSIONAL TESTIMONY (OIG-12-036-T)

On September 12, 2012, the Inspector General testiﬁed about the
Department’s response to the National Weather Service’s (NWS’s)                “Our focus has shifted from reviewing
unauthorized reprogramming of budgetary resources. His testi-                  the reprogramming request to
mony focused on three areas: whistleblower complaints, dating                  evaluating the Department’s progress
back to 2010, many of which have since been validated by multiple
reviews of NWS ﬁnancial mismanagement; separate Departmental
                                                                               in taking corrective action.”
and NOAA internal inquiries, resulting in both the Department and
NOAA undertaking signiﬁcant corrective action; and recent and                  IG testimony before a House Science, Space, and
current OIG follow-up reviews, to measure the sufﬁciency of the                Technology Subcommittee, September 12, 2012
internal inquiries and the resulting corrective actions.

FORMER EXECUTIVE DIRECTORS PLEAD GUILTY TO THEFT OF
NOAA GRANT FUNDS

In May 2012, two former executive directors for the Alaska Eskimo Whaling Commission
(AEWC) pled guilty to counts of fraud and money laundering. AEWC had received grant funds
from NOAA to implement a whaling weapon improvement plan; undertake a census of whale
species; and have employees and commissioners attend International Whaling Commission
meetings and AEWC meetings.

In June 2011, a former AEWC executive director was indicted on two counts of theft or bribery
concerning programs receiving federal funds in the U.S. District Court for the District of Alaska.
In September 2011, a second former executive director of AEWC was indicted on one count
of wire fraud, two counts of theft or bribery concerning programs receiving federal funds, and
one count of money laundering in the U.S. District Court for the District of Alaska. A joint
investigation with the FBI and the Internal Revenue Service’s (IRS’) Criminal Investigation
Department disclosed that the former executive directors fraudulently obtained and misapplied
approximately $100,339 and $475,000, respectively, in AEWC funds. Both defendants are
awaiting sentencing, which is scheduled for November and December, 2012.

NOAA OLE REVISES FIREARMS POLICY AND DISCIPLINES AGENT
OVER INCIDENT

NOAA’s Ofﬁce of Law Enforcement (OLE) accepted our recommendations to change its
ﬁrearms training to emphasize existing policy prohibiting alcohol consumption while armed after
our investigation substantiated allegations that an agent had consumed numerous alcoholic
beverages at a Super Bowl party while armed with his government-issued handgun. NOAA OLE
also agreed to increase the frequency of its ﬁrearms qualiﬁcations from semiannual to quarterly,
the standard among federal law enforcement agencies. We also referred the matter to NOAA
OLE for any administrative action against the agent that it deems appropriate.
24   Office of Inspector General | Semiannual Report to Congress | September 2012




     NATIONAL TELECOMMUNICATIONS
     AND INFORMATION ADMINISTRATION



     The National Telecommunications and Information
     Administration serves as the executive branch’s principal advisor
     to the President on domestic and international telecommunications
     and information policy issues. NTIA manages the federal use
     of the electromagnetic spectrum, provides grants for national
     information and public broadcasting infrastructure projects, and
     performs telecommunications research and engineering. It works to
     enhance citizens’ access to cable television, telephone, and other
     telecommunications services and educates state and local governments
     and other entities on ways to use information technology and
     telecommunications more effectively.
                                                          National Telecommunications and Information Administration   25




SIGNIFICANT IT SECURITY PROGRAM IMPROVEMENTS ARE NEEDED TO
ADEQUATELY SECURE NTIA’S SYSTEMS (OIG-12-035-A)

As a part of FISMA requirements, OIG evaluated seven NTIA systems and found that
fundamental steps for securing its information and systems have not been taken. These
deﬁciencies include (1) inadequate security categorizations that jeopardize critical bureau
information, (2) signiﬁcant weaknesses in IT software and hardware inventory practices, (3)
major inadequacies in NTIA’s process to remediate security weaknesses, (4) weaknesses in
managing its IT security workforce and developing effective IT security policies and procedures,
and (5) signiﬁcant deﬁciencies in key IT security controls. These issues have resulted in
ineffective management of security controls needed to protect NTIA’s systems and information.

We recommended that the Assistant Secretary for Communications and Information ensure
the following:


• 	 the authorization status of NTIA’s systems is revised to interim authorization to operate until
      (1) system owners and NTIA ofﬁcials collaborate to identify and categorize all information
      types that are processed, stored, or transmitted by each system and categorize each system
      accordingly; (2) system owners develop and maintain an accurate hardware and software
      inventory for their systems; (3) NTIA implements and assesses appropriate IT security
      controls; and (4) NTIA follows the plan of action and milestones process required by the
      Department’s IT security policy.
•   	 system owners, IT security ofﬁcers, authorizing ofﬁcials, and other staff with critical IT security
      roles are appropriately trained, earn certiﬁcations as required by Department policy, and have
      the required metrics incorporated into their performance plans.
•   	 NTIA’s chief information ofﬁcer and IT security ofﬁcer develop and maintain NTIA security
      policies, procedures, standards, and guidance consistent with departmental and federal
      requirements.
26   Office of Inspector General | Semiannual Report to Congress | September 2012




     UNITED STATES PATENT
     AND TRADEMARK OFFICE



     The United States Patent and Trademark Ofﬁce administers the
     nation’s patent and trademark laws. Patents are granted and trademarks
     registered under a system intended to provide incentives to invent, invest
     in research, and commercialize new technology. USPTO also collects,
     assembles, publishes, and disseminates technological information
     disclosed in patents.
                                                                     United States Patent and Trademark Office                       27




USPTO’S OTHER BACKLOG: PAST PROBLEMS AND
RISKS AHEAD FOR THE BOARD OF PATENT APPEALS                                   USPTO’s Board of Patent Appeals
(OIG-12-032-A)
                                                                              and Interferencesa
                                                                              USPTO’s responsibilities include reviewing
The Board of Patent Appeals and Interferences (BPAI) faces the
                                                                              and deciding on patent applications, as well as
challenge of a growing number and pendency of ex parte appeals
                                                                              providing the means for parties to appeal patent
(see ﬁgure below for appeals process). USPTO has accumulated
                                                                              examiners’ decisions. Although the backlog of patent
a substantial backlog and pendency of patent appeals. Thus,                   applications remains at more than 600,000, USPTO
applicants are waiting longer to receive a decision. The time                 has also accumulated another substantial backlog:
spent by appellants awaiting a decision has almost doubled                    patent appeals.
between FY 2010 and mid-FY 2012. An additional challenge,
                                                                              Responsibility for patent appeals rests with BPAI,
the America Invents Act of 2011 (AIA), gives BPAI operations
                                                                              USPTO’s administrative law body. Most of BPAI’s cases
additional responsibilities—including planning, implementing, and
                                                                              are ex parte appeals, which do not include all parties’
institutionalizing new proceedings for reviews and expanding the
                                                                              presence or testimony. In addition, BPAI receives
size of BPAI to meet these responsibilities. Because of these                 requests for inter partes and ex parte reexaminations
challenges, our review sought to determine (1) whether BPAI’s                 from patent owners or third parties to evaluate the
stafﬁng and resources have changed in relation to changes in its              patentability of a claim or claims of an existing patent.
caseload and (2) to what extent BPAI operations and resources                 BPAI also has jurisdiction for interferences, which are
will be affected by the implementation of AIA.                                appeals from applicants who claim the same proposed
                                                                              invention as one already claimed by another applicant
Between FYs 2005 and 2011, as the number of appeals BPAI                      or patent owner. Patent applicants may submit an
                                                                              ex parte appeal to BPAI after any of their claims have
received for review rose substantially (as have the appeal backlog
                                                                              been rejected twice by patent examiners.
and pendency time), BPAI’s stafﬁng levels have remained
essentially ﬂat. Furthermore, until 2008, inaccurate data delayed             a
                                                                               As of September 16, 2012, BPAI was ofﬁcially
efforts to address the growing backlog and increase in appeal                 changed to the Patent Trial and Appeal Board.
pendency.


Overview of BPAI Patent Appeals Process



                                                                                             Appeal
                                               Appeal              Appeal
    Claims for           Notice of                                                         made to the
                                                brief             docketed
      patent              appeal;                                                            Court of
                                              answered            to BPAI;
     rejected             appeal                                                           Appeals for
                                                 by               decision
       twice             brief ﬁled                                                        the Federal
                                              examiner              made
                                                                                              Circuit


Source: OIG, based on USPTO documentation



We recommended that the Under Secretary of Commerce for Intellectual Property and Director
of USPTO

• 	 align BPAI’s resource planning with the hiring actions and expected production levels of
      patent examiners;
•   	 require BPAI to annotate current information on public websites to indicate that backlog data
      prior to FY 2010 are underreported and therefore should be used with caution;
28   Office of Inspector General | Semiannual Report to Congress | September 2012




     • 	 direct BPAI to develop and publish performance measures and targets for ex parte appeals
           and other proceedings;
     •   	 develop comprehensive management plans (including how to measure progress, gauge
           performance, and identify risk) to address the implementation and operational oversight of the
           new BPAI proceedings under the AIA;
     •   	 ensure that data processing systems meet the needs of all four AIA proceedings; and
     •   	 explore the feasibility of BPAI’s current management and administrative structure and stafﬁng,
           given the increase in the number of proceedings and staff at BPAI.
30   Office of Inspector General | Semiannual Report to Congress | September 2012




     AMERICAN RECOVERY
     AND REINVESTMENT ACT



     The Recovery Act—signed into law by President Barack Obama on
     February 17, 2009—has three immediate goals: (1) create new jobs
     and save existing ones, (2) spur economic activity and invest in long-
     term growth, and (3) foster unprecedented levels of transparency and
     accountability.

     Five Department of Commerce bureaus—the Census Bureau, EDA,
     NIST, NOAA, and NTIA—and OIG received $7.9 billion under the Act,
     with $1.2 billion ultimately rescinded or transferred to other agencies. As
     of September 30, 2012, the Department had obligated almost all of the
     approximately $6.7 billion remaining and had disbursed approximately
     $4.8 billion. (The disbursal amount includes funding for the now-
     completed NTIA Digital Television Converter Box Coupon Program.)
                                                                                                               American Recovery and Reinvestment Act                            31




OIG RECOVERY ACT OVERSIGHT, FEBRUARY 2009–MARCH 2012

Funded by $16 million for proactive oversight of the Department’s Recovery Act programs and
activities, OIG has been evaluating whether agencies are using Recovery Act funds efﬁciently
and effectively and following up on complaints, including whistleblower reprisal allegations.


      Key Activities                                                                                                       Cumulative Results

      Published audit and evaluation reports                                                                                                   20
      Unpublished work products                                                                                                                  5
      Audits/evaluations in progress                                                                                                             2
      OIG recommendations for action, correction, or improvement                                                                               78
      Recommendations implemented to take corrective action by making
                                                                                                                                               57
      improvements, reducing risk, or preventing waste
      Investigations completed                                                                                                                 23
      Investigations in progress                                                                                                                 4
      Whistleblower reprisal allegations received                                                                                                9
      Whistleblower reprisal allegations accepted                                                                                                1
      Debarments and corporate compliance agreements implemented                                                                                 0
      Proactive training and outreach sessions held                                                                                        129
      Individuals trained                                                                                                               6,624
      Hours of training provided                                                                                                        8,259



COMMERCE BUREAUS’ RECOVERY ACT OBLIGATIONS AND DISBURSEMENTS
AS OF SEPTEMBER 30, 2012

                        $4,500                                                                                                                 100%   100%


                                 $4,130                                                               92%
                                                                                                                      92%                             90%
                        $4,000                                     87%

                                                                                     85%
                                                       82%                                                                                            80%
                                                                                                                           Total Obligations
                        $3,500
                                                                                                                           Total Disbursements

                                                                                                                           Percent Disbursed          70%
                        $3,000
Dollars (in Millions)




                                                                                                                                                             Percent Disbursed




                                                                                                                                                      60%
                                          59%
                        $2,500        $2,421

                                                                                                                                                      50%

                        $2,000

                                                                                                                                                      40%


                        $1,500
                                                                                                                                                      30%


                                                                                                                                      $997 $995
                        $1,000
                                                                                                                                                      20%



                         $500
                                                $360                                                                                                  10%
                                                       $294                       $250
                                                                $248 $215                $213      $230 $213
                                                                                                                   $146 $134

                           $0                                                                                                                         0%
                                    NTIA           NIST        NIST Research   NOAA Procurment, NOAA Operations,     EDA                Census
                                                Construction    and Services    Acquisition, and Research, and
                                                                                 Construction      Facilities
32   Office of Inspector General | Semiannual Report to Congress | September 2012




     OVERSIGHT ACTIVITIES OF NIST’S RECOVERY ACT CONSTRUCTION CONTRACTS
     NEED IMPROVEMENT (OIG-12-028-A)

     The Recovery Act appropriated $360 million to NIST to construct research facilities, including
     $180 million in contracts for the construction and renovation of research facilities on NIST’s
     headquarters in Gaithersburg, Maryland, and NIST’s campus in Boulder, Colorado. The
     construction projects, as initially proposed, included a precision measurement laboratory;
     maintenance and repair projects to enhance NIST’s aging facilities; Center for Neutron Research
     expansion for a high-efﬁciency cooling system and supporting infrastructure; and a National
     Structural Fire Resistance Laboratory, to study how ﬁres start.

     We found deﬁciencies in NIST’s operating procedures and oversight practices. With tens of
     millions of dollars of Recovery Act funds remaining, NIST needs to strengthen its oversight of
     these construction projects. Speciﬁcally, we found

     • 	 inadequate controls over contract extensions jeopardized timely completion of projects,
     • 	 lack of adequate oversight allowed noncompliance with the Buy American provision of the
           Recovery Act,
     •   	 lack of adequate oversight resulted in inaccurate/incomplete data posted on government
           websites, and
     •   	 inadequate controls led to deﬁciencies in award administration.

     Consequently, we recommended that the Under Secretary of Commerce for Standards and
     Technology direct NIST to

     • 	 establish standard operating procedures (SOPs) for reviewing, monitoring, and approving
           contracts for extensions; extend the performance period for six contracts that missed or are at
           risk of missing their performance end dates; and create a management tool for monitoring the
           progress of construction contracts;
     •   	 update the SOPs for Buy American exception determinations and waiver approvals and
           conduct Buy American procedures training for staff;
     •   	 provide training to staff and contractors on Recovery jobs calculation formula and ensure that
           data are correctly posted on government websites; and
     •   	 review the contract award process to correct inconsistencies in obtaining legal reviews,
           issuing contracting ofﬁcer’s technical representative (COTR) letters, and conducting fraud
           prevention training.

     NTIA NEEDS STRONGER MONITORING OF BTOP GRANT RECIPIENTS’ MATCH
     (OIG-12-029-A)

     By September 27, 2010, NTIA had awarded 233 Broadband Technology Opportunities Program
     (BTOP) grants, including Comprehensive Community Infrastructure (CCI), Public Computing
     Centers (PCC), and Sustainable Broadband Adoption (SBA) grants. By March 31, 2012, the
     number of BTOP grants had decreased to 228 due to grant cancelations and terminations.

     To oversee grant recipients’ match throughout the award, including postaward, NTIA monitors
     cash drawdowns, reviews grantees’ quarterly ﬁnancial reports for matching share, and
     documents proportionality waivers. In December 2010, NTIA developed a match matrix to
     review grant match. NTIA’s reviews of CCI grants included an in-depth review of all proposed
     budgeted match line items. However, for the SBA and PCC grants, NTIA’s match matrix did
                                                                      American Recovery and Reinvestment Act                       33




not provide sufﬁcient information to determine if NTIA’s review
was thorough and effective. We also found two internal control                 The Recovery Act and Broadband
vulnerabilities with respect to access to the Treasury Automated
Standard Application for Payment (ASAP) system to make cash                    The Recovery Act gave $4.7 billion to NTIA to establish
drawdowns. In addition, 32 percent of our sample of grantees did               BTOP, a competitive grant program intended to provide
not record all of their match amounts in their ﬁnancial records.               funds for deploying broadband infrastructure in the
Finally, a signiﬁcant number of grant recipients were not in                   United States in order to enhance broadband capacity at
compliance with the proportionality clauses of their grants.                   public computing centers, improve access to broadband
                                                                               services for public safety agencies, promote sustainable
We recommended that the Assistant Secretary for                                broadband adoption projects, and develop an interactive
Communications and Information                                                 map showing broadband capabilities and availability.

                                                                               Since enactment of the law, OIG has provided oversight
• 	 develop and implement improved processes for reviewing PCC                 of NTIA’s administration of the $4.4 billion program. The
     and SBA grant match amounts;                                              Recovery Act requires BTOP grantees to provide at
• 	 formally communicate the risk associated with third-party cash             least a 20 percent nonfederal matching share.
      drawdowns to all grant recipients and stress the importance of
      increased monitoring on their behalf when allowing third parties
      to draw down grant funds from the Treasury ASAP system;
•   	 implement program ofﬁce controls to closely monitor ASAP drawdowns on a timely basis,
      especially those grant recipients that have delegated ASAP system access to third parties;
•   	 communicate to recipients that match expenditures must be supported and correctly
      reﬂected in their ﬁnancial records; and
•   	 work with NIST and NOAA grants ofﬁcers to provide NTIA with the BTOP grantees’ quarterly
      ﬁnancial status reports and monitor the contribution trends and proportionality waiver activity
      to ensure grantees are providing their required match.

REVIEW OF NTIA’S OVERSIGHT OF THE BOOZ ALLEN HAMILTON CONTRACT
SUPPORTING THE BROADBAND TECHNOLOGY OPPORTUNITIES PROGRAM
(OIG-12-031-M)

In August 2009, the Department of Interior, on behalf of NTIA, entered into a contract with Booz
Allen for technical expertise during the BTOP grant-making process and a system to manage
and monitor grant performance and oversight. In the course of this contract, NTIA identiﬁed the
need for further support; it competitively awarded a second contract to Booz Allen for BTOP
program management and support services. The subsequent contract for $31 million began
in April 2012 and extends through the estimated completion of the BTOP program, which is in
February 2015. The two Booz Allen contracts total approximately $106 million.

The Booz Allen contracts are predominantly time and materials (T&M) contracts, under which
a contractor’s base payments on the number of labor hours are billed at a ﬁxed hourly rate and
the cost of materials. The federal government considers these contracts high-risk because the
contractor’s proﬁt is tied to the number of hours worked, although T&M contracts also must
incorporate a ceiling price that the contractor exceeds at its own risk.

NTIA has generally met the requirements spelled out in the Federal Acquisition Regulation (FAR)
for T&M contracts. In addition, NTIA’s risk management for the Booz Allen contract includes
regular invoice reconciliation, tracking of contractor performance, management of contract
modiﬁcations to facilitate appropriate alignment of personnel overtime, and approvals for other
direct costs and travel. Nonetheless, NTIA should consider improving contract oversight controls
in (1) invoice and payroll reconciliation and (2) independent review.
34                         Office of Inspector General | Semiannual Report to Congress | September 2012




                           CONGRESSIONAL TESTIMONY (OIG-12-026-T)

                                                                On May 16, 2012, the Inspector General testiﬁed about the
“For the Department to ensure                                   approximately $4.7 billion in funds the Recovery Act initially
                                                                provided to NTIA to establish BTOP. His testimony addressed ﬁve
effective implementation of BTOP,
                                                                challenges confronting BTOP at that time:
especially in light of fulﬁlling OM B
and legislative requirements, OIG                               1. Slow awardee spending could result in unﬁnished grant
and NTIA will require Congress to                               projects. OMB directed federal agencies to complete Recovery
continue your oversight efforts.”                               Act projects by September 30, 2013. OIG is primarily concerned
                                                                with infrastructure projects which represent about $3.2 billion
IG testimony before a House Energy and Commerce                 in awards.
Subcommittee, May 16, 2012
                                                         2. NTIA is addressing program ofﬁce monitoring issues but
                                                         additional monitoring of equipment procurement may be needed.
                                                         OIG provided NTIA recommendations for improving internal
                              controls over monitoring activities. The agency is addressing those recommendations;
                              however, grantee equipment procurement and installation have become areas for NTIA to
                              focus monitoring efforts.

                           3. Issues with awardee grant match documentation require closer NTIA oversight. NTIA should
                              strengthen its oversight of recipients meeting their match requirements. Match funds should
                              be contributed in proportion to drawdowns, to ensure that projects are appropriately funded
                              throughout their development and remain on schedule.

                           4. NTIA needs to assess the impact that the recently established First Responder Network
                              Authority (FirstNet) program may have on existing BTOP public safety projects. Seven BTOP
                              projects involve public safety communication networks that will be impacted by FirstNet’s
                              public safety broadband network. Past BTOP oversight helps OIG anticipate issues and
                              concerns that could potentially arise with FirstNet.

                           5. Funding questions about 2013 and beyond raise concerns over continued BTOP oversight. It
                              is anticipated that OIG and NTIA will require BTOP funding beyond 2013 to oversee grant-
                              funded projects, due largely to the need to close out projects and, in some cases, slower
                              project spending that will likely result in the issuance of extension waivers.

                           LESSONS LEARNED REVIEW FOR THE AMERICAN RECOVERY AND
                           REINVESTMENT ACT

                           The Department of Commerce participated in a joint review initiated by the Recovery
                           Accountability and Transparency Board (the Board) to document the lessons learned from
                           implementing the Recovery Act. Using a set of standard questionnaires provided by the Board,
                           OIG collected valuable input from Departmental management and the ﬁve bureaus that received
                           Recovery Act funds—the Census Bureau, EDA, NIST, NOAA, and NTIA. Respondents reported
                           on the following:

                           1. Pre-award/award processes for awarding and dispersing Recovery Act funds. The
                              Department reported using various mechanisms to communicate with potential Recovery
                              Act fund recipients, and communications were generally effective. The Department generally
                              required and reviewed applications and plans before awarding Recovery Act funds.
                                                                 American Recovery and Reinvestment Act   35




2. Outreach, education, and technical assistance to engage Recovery Act fund recipients. The
   Department reported using all mechanisms identiﬁed by the Board (except podcasts) to reach
   out to Recovery Act fund recipients. In addition, more than 1,000 recipients had attended
   NTIA’s BTOP workshops, and hundreds of recipients attended workshops for other Recovery
   Act programs.

3. Performance measures of the success of program implementation. The Department reported
   using both outcome- and output-oriented measures to measure achievement of four of the
   ﬁve primary goals identiﬁed by the Board: to preserve/create jobs and promote economic
   recovery; assist those most impacted by the recession; increase economic efﬁciency
   by spurring technological advances in science and health; and invest in transportation,
   environmental protection, and other infrastructure for long-term economic beneﬁts. However,
   the Department programs were not applicable to achieving the goal of stabilizing state
   and local government budgets to minimize or avoid reductions in essential services and
   counterproductive state and local tax increases.

4. Monitoring and oversight of Recovery Act requirements. The Department reported plans
   to continue some of the oversight mechanisms post-Recovery Act funding. Additionally, it
   reported various challenges experienced, such as difﬁculties in meeting quarterly Recovery
   Act reporting requirements and a negative impact on non-Recovery Act operations from
   competing priorities. While the Department has terminated some Recovery Act projects, it has
   not yet initiated any Recovery Act–related suspension or debarment actions directly. However,
   OIG assisted the Air Force in one matter that involved four suspension actions of parties
   associated with a recipient of Recovery Act funds from the Department.

Overall, the Department reported that guidance and oversight received from the Board and OIG
were helpful.
36   Office of Inspector General | Semiannual Report to Congress | September 2012




     WORK IN
     PROGRESS


     WORK IN PROGRESS (BY OVERSIGHT AREA)

     During this reporting period, 19 OIG audits and evaluation projects were initiated or under way.




                6




                               3
                                         2               2       2

                                                                               1     1       1    1
                                                            a




                                                                     b
                       e




                               A




                                         TO




                                                                               A




                                                                                     A




                                                                                                     A
                                                                                             T
                   id




                                                         ct
                               A




                                                                             ED




                                                                                    IT




                                                                                                  TI
                                                                 A




                                                                                         IS
                                     SP
                           O
                   w




                                                                ES
                                                        A




                                                                                                 N
                                                                                         N
                           N
                t-




                                                    ry
                                     U
              en




                                                   ve
           tm




                                               co
         ar




                                              Re
      ep
     D




     a   Both Recovery Act–related works in progress concern NTIA.
     b   The ESA works in progress concern the Census Bureau.


     DEPARTMENT-WIDE

     IT Security
     Assess the effectiveness of the Department’s IT security program by determining whether key
     security measures adequately project the Department’s systems and its information, as required by
     the Federal Information Security Management Act of 2002 (FISMA).

     Purchase Card Controls
     Determine whether the Department has adequate transaction-level internal controls over purchase
     card transactions by reviewing a sample from all bureaus during FY 2011. During FY 2011, the
     Department had more than 4,500 purchase cards, which processed approximately $118.6 million in
     purchase card transactions.
                                                                                         Work In Progress   37




Time-and-Materials and Labor-Hours (T&M/LH) Contracts
Assess whether the Department properly awards and administers these contracts. For FY 2011,
Commerce awarded 2,893 high-risk T&M/LH contract actions for $586 million. Both contract types
provide for payment to contractors on the basis of ﬁxed hourly billing rates, designed to recover the
contractors’ direct salaries, overhead, general and administrative expenses, and proﬁt. T&M contracts
also provide for reimbursement of the contractors’ actual costs of supplies and materials.

Unliquidated Obligations
Evaluate controls over the management and closeout of unused or unneeded (unliquidated)
obligations. It is essential that the Department perform timely reviews of contract, grant, and other
unliquidated obligations and deobligate funds no longer needed. This could result in funding available
for other purposes.

Controls over Quarterly Conference Reporting
Determine whether the Department has established controls and provided guidance to bureaus for
reporting quarterly conference data.

FY 2012 Audit of the Department’s Financial Statements
Determine whether the ﬁnancial statements are presented fairly, in all material respects, in
accordance with generally accepted accounting principles. (The audit will also consider the
Department’s internal controls over ﬁnancial reporting and test compliance with certain provisions
of laws, regulations, and contracts that could have a direct and material effect on the ﬁnancial
statements.)

ECONOMIC DEVELOPMENT ADMINISTRATION

Audit of EDA’s IT Security Program
As part of our FY 2012 FISMA audit, (1) assess the effectiveness of EDA’s IT security program,
(2) determine the signiﬁcant factors that contributed to the cyber compromise of EDA’s information
systems, and (3) evaluate activities either completed or planned to reconstitute its information
systems to support critical operational requirements.

ECONOMICS AND STATISTICS ADMINISTRATION

Census 2020 Redesign
Review the status of the Bureau’s Census 2020 redesign. Determine if Census governance and
internal controls are adequate; assess implementation of each research project, including time frames
for completion and deliverables; and assess the Bureau’s approach to evaluating each project,
including whether accurate and reliable data will be available. Without changes, Census 2020 could
cost up to $30 billion (according to GAO’s estimate).

Letter to Senator Coburn re: Census Bureau Administrative Records Use and
Address Sharing
Respond to the Senator’s request during the July 18, 2012, hearing Census: Planning Ahead for
2020 that OIG answer (1) what Congress can do to help the Census Bureau make greater use of
administrative records and (2) how Congress can ease the Census Bureau’s restrictions on sharing
address information with state and local governments.
38   Office of Inspector General | Semiannual Report to Congress | September 2012




     INTERNATIONAL TRADE ADMINISTRATION

     Review of U.S. Export Assistance Centers (USEACs)
     (1) Evaluate whether the U.S. & Foreign Commercial Service’s (CS’) allocation of domestic resources
     meets its mission and goals; (2) assess CS’ level of cost recovery; and (3) determine the extent
     to which the level of coordination between the USEACs and their federal government agencies is
     sufﬁcient to meet the President’s priorities with respect to the National Export Initiative.

     NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

     Review of FYs 2011 and 2012 Manufacturing Extension Partnership (MEP)
     Conference Spending
     Review federal spending at MEP conferences in FYs 2011 and 2012, including the May 2012
     conference, to determine the legitimacy and reasonableness of related charges.

     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

     Fishery Management Councils (FMCs) and Rulemaking
     Review controls, processes, and operational best practices used by NOAA FMCs to develop
     rules for the industry. Evaluate the role of NOAA and the FMCs in the ﬁshery rulemaking process
     and the transparency of the rulemaking process prescribed under the Magnuson-Stevens Fishery
     Conservation and Management Act.

     Geostationary Operational Environmental Satellite-R Series (GOES-R) Acquisition
     and Development
     Assess the adequacy of contract management and administration and the effectiveness of
     management’s direction, monitoring, and collaboration for development of select components in the
     GOES-R program.

     Actions Taken to Correct Deﬁciencies Leading to Budget Reprogramming Requests
     In response to a June 2012 request from the U.S. Senate to review materials and ﬁndings from a May
     2012 internal inquiry report prepared by the Department, determine the adequacy of actions taken by
     NOAA in addressing issues arising from FY 2012 reprogramming requests.

     NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

     Public Safety Interoperable Communications (PSIC) Grant Program Costs
     and Equipment
     Determine whether (1) costs incurred by grantees receiving PSIC funds from the Department
     are allowable and in accordance with grant requirements; (2) grantees are meeting matching
     share requirements; (3) equipment acquired by the grantees has been tested and certiﬁed before
     deployment, operates effectively, and improves interoperability in the state; and (4) grantees are on
     schedule to complete interoperable communications investments by September 30, 2011, or—with
     an approved extension—by September 30, 2012. (The Implementing Recommendations of the
     9/11 Commission Act of 2007 require Commerce OIG to annually assess NTIA’s management of
     PSIC and to transmit ﬁndings to the House Committee on Energy and Commerce and the Senate
     Committee on Commerce, Science, and Transportation. In addition, Congress speciﬁed that 25
     ﬁnancial audits be conducted on the PSIC program. This report will contain the remaining 16
     ﬁnancial audits.)
                                                                                          Work In Progress   39




UNITED STATES PATENT AND TRADEMARK OFFICE

USPTO’s Deployment of Public and Enterprise Wireless Capability
As part of our FY 2012 FISMA audit, determine whether security requirements were adequately
addressed during system development.

FY 2012 Financial Statement Audit
Determine whether USPTO’s ﬁnancial statements are presented fairly, in all material respects, in
accordance with generally accepted accounting principles. (The audit will also consider USPTO’s
internal controls over ﬁnancial reporting and test compliance with certain provisions of laws,
regulations, and contracts that could have a direct and material effect on the ﬁnancial statements.)

AMERICAN RECOVERY AND REINVESTMENT ACT

Broadband Technology Opportunities Program (BTOP) Subrecipient Monitoring
Assess whether all subrecipients have been identiﬁed and properly classiﬁed and determine whether
adequate controls are in place to ensure effective subrecipient monitoring and compliance with
award terms and conditions.

Review of Broadband Technology Opportunities Program Award to the Executive
Ofﬁce of the State of West Virginia
In response to a June 2012 request from the U.S. House of Representatives, (1) determine whether
BTOP funds associated with the award are being properly and efﬁciently spent; (2) assess the
process West Virginia used to apply for a BTOP grant and whether the application contained any
material misrepresentations; and (3) review the process used to evaluate West Virginia’s application,
including any steps NTIA took to verify claims in the application.
40   Office of Inspector General | Semiannual Report to Congress | September 2012




     STATISTICAL DATA


     The Inspector General Act Amendments of 1988 require us to present the statistical data
     contained in Tables 1–8.


      TABLES	                                                                                 Page

      1. Ofﬁce of Investigations Statistical Highlights for This Period	                       40


      2. Audit Resolution and Follow-up	                                                       41


      3. Audit and Evaluation Statistical Highlights for This Period	                          42


      4. Audits with Questioned Costs	                                                         43


      5. Audits with Recommendations That Funds Be Put to Better Use	                          44


      6. Report Types for This Period	                                                         44


          6-a. Performance Audits                                                              45


          6-b. Evaluations and Inspections                                                     46


      7. Single Audit and Program-Speciﬁc Audits	                                              47


          7-a. Processed Reports with Audit Findings                                           48


      8. Audits Unresolved for More Than 6 Months	                                             49



     TABLE 1. OFFICE OF INVESTIGATIONS STATISTICAL HIGHLIGHTS FOR THIS PERIOD

     Investigative activities cover investigations opened and closed by OIG; arrests by OIG
     agents; indictments and other criminal charges ﬁled against individuals or entities as a result of
     OIG investigations; convictions secured at trial or by guilty plea as a result of OIG investigations;
     and ﬁnes, restitution, and all other forms of ﬁnancial recoveries achieved by OIG as a result of
     investigative action.

     Allegations processed presents the number of complaints from employees, stakeholders,
     and the general public that were handled by our Complaint Intake Unit. Of these, some resulted
     in the opening of investigations; others were referred to Commerce bureaus for internal
     administrative follow-up. Others were unrelated to Commerce activities or did not provide
     sufﬁcient information for any investigative follow-up and so were not accepted for investigation
     or referral. Fines and other ﬁnancial recoveries refer only to agreements that a judge accepted.
                                                                                                        Statistical Data       41




                                                Investigative Activities
Investigations opened                                                                                    44
Investigations closed                                                                                    42
Arrests                                                                                                    0
Indictments/Informations                                                                                   0
Convictions                                                                                                3
Fines and other ﬁnancial recoveries                                                          $11,414,884a
                                                Allegations Processed
Hotline complaints                                                                                      661
Total complaints, all sources                                                                           661
Referrals to bureaus or non-Commerce agencies                                                           322
    Referrals with response required                                                                    126
          Responses received                                                                            127
               From referrals made this reporting period                                                 34
               From referrals made prior                                                                 93
          Referrals closed                                                                              111
    Referrals with no response required                                                                 196
Evaluated but not accepted for investigation or referral                                                295
a This
     total is derived from our participation in two federal multi-agency investigations. It does not reﬂect actual         

  monetary recoveries for the Department of Commerce.



TABLE 2. AUDIT RESOLUTION AND FOLLOW-UP

The Inspector General Act Amendments of 1988 require us to present (in this report) audits
issued before the beginning of the reporting period (April 1, 2012) for which no management
decision had been made by the end of the period (September 30, 2012). Six audit reports
remain unresolved for this reporting period (see page 49).

Audit resolution is the process by which the Department of Commerce reaches an effective
management decision in response to audit reports. Management decision refers to
management’s evaluation of the ﬁndings and recommendations included in the audit report and
the issuance of a ﬁnal decision by management concerning its response.

Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures
for management to request a modiﬁcation to an approved audit action plan or for a ﬁnancial
assistance recipient to appeal an audit resolution determination. The following table summarizes
modiﬁcation and appeal activity during the reporting period.


Report Category                                            Modiﬁcations                         Appeals
Actions pending (April 1, 2012)                                    0                                1
Submissions                                                        0                                2
 Decisions                                                         0                                1
 Actions pending (September 30, 2012)                              0                                2
42   Office of Inspector General | Semiannual Report to Congress | September 2012




     TABLE 3. AUDIT AND EVALUATION STATISTICAL HIGHLIGHTS FOR THIS PERIOD

     Audits comply with standards established by the Comptroller General of the United States for
     audits of federal establishments, organizations, programs, activities, and functions.

     Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an
     audit or a criminal investigation.


         Questioned costsa                                                              $ 46,093,633

         Value of audit recommendations that funds be put to better useb                  61,141,213

         Value of audit recommendations agreed to by managementc                          17,282,491


     These amounts include costs questioned by state and local government auditors or independent
     public accountants.

     a   Questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of a
         provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
         document governing the expenditure of funds; (2) a ﬁnding that, at the time of the audit, such
         cost is not supported by adequate documentation; or (3) a ﬁnding that an expenditure of funds
         for the intended purpose is unnecessary or unreasonable.

     b   Value of audit recommendations that funds be put to better use: This results from an
         OIG recommendation that funds could be used more efﬁciently if Commerce management
         took action to implement and complete the recommendation. Such actions may include (1)
         reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
         interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred
         by implementing recommended improvements related to Commerce, a contractor, or a grantee;
         (5) avoidance of unnecessary expenditures identiﬁed in preaward reviews of contracts or grant
         agreements; or (6) any other savings speciﬁcally identiﬁed.

     c   Value of audit recommendations agreed to by management: This is the sum of (1)
         disallowed costs and (2) funds put to better use that are agreed to by management during
         resolution. Disallowed costs are the amount of costs that were questioned by the auditors
         or the agency action ofﬁcial and subsequently determined—during audit resolution, or during
         negotiations by a contracting ofﬁcer—not to be charged to the government.
                                                                                                         Statistical Data   43




TABLE 4. AUDITS WITH QUESTIONED COSTS

See table 3 for a deﬁnition of “questioned cost.” An unsupported cost is a cost that is not
supported by adequate documentation at the time of the audit. Questioned costs include
unsupported costs.


                                                                                 Questioned          Unsupported
 Report Category	                                              Number
                                                                                   Costs                Costs

 A.	      Reports for which no management
          decision had been made by the                            12           $24,701,929           $4,819,060
          beginning of the reporting period
 B.	      Reports issued during the reporting
                                                                   19             46,093,633          44,396,905
          period

 Total reports (A+B) requiring a management
                                                                   31             70,795,562          49,215,965
 decision during the perioda

 C.	      Reports for which a management
          decision was made during the reporting                   12             10,465,386            4,341,321
          periodb
          i. Value of disallowed costs	                                           14,846,282          10,296,829
          ii. Value of costs not disallowed 	                                     10,036,316            2,610,151
 D.	      Reports for which no management
          decision had been made by the end of                     19             60,330,176          44,874,644
          the reporting period

a Three  audit reports included in this table are also included among reports with recommendations that funds be
  put to better use (see table 5). However, the dollar amounts do not overlap.
b In Category C, lines i and ii do not always equal the total line in C because resolution may result in values greater

  than the original recommendations.
44   Office of Inspector General | Semiannual Report to Congress | September 2012




     TABLE 5. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

     See table 3 for a deﬁnition of “recommendation that funds be put to better use.”



      Report Category                                                               Number                   Value

      A.        Reports for which no management decision had been
                                                                                       3                 $1,979,832
                made by the beginning of the reporting period
      B.        Reports issued during the reporting period                             3                 61,141,213

      Total reports (A+B) requiring a management decision during
                                                                                       6                 63,121,045
      the perioda

      C.        Reports for which a management decision was made
                                                                                       6                   2,193,590
                during the reporting periodb, c
                i. Value of recommendations agreed to by management                                        2,436,209
                ii. Value of recommendations not agreed to by
                                                                                                                6,573
                management
      D.        Reports for which no management decision had been
                                                                                       1                 60,927,455
                made by the end of the reporting period

     a Three audit reports included in this table are also included among reports with questioned costs (see Table 4).
       However, the dollar amounts do not overlap.
     b
       In Category C, lines i and ii do not always equal the total line in C because resolution may result in values greater
       than the original recommendations.
     c
       The reviewing grant ofﬁce identiﬁed Funds to Be Put to Better Use during its audit resolution review, which 

       resulted in an additional report for C.



     TABLE 6. REPORT TYPES FOR THIS PERIOD

     Performance audits are engagements that provide assurance or conclusions based on
     an evaluation of sufﬁcient, appropriate evidence against stated criteria, such as speciﬁc
     requirements, measures, or deﬁned business practices. Performance audits provide objective
     analysis so that management, and those charged with governance and oversight can use the
     information to improve program performance and operations, reduce costs, facilitate decision
     making by parties with responsibility to oversee or initiate corrective action, and contribute to
     public accountability.

     Evaluations and inspections include evaluations, inquiries, and similar types of reviews that
     do not constitute an audit or a criminal investigation. An inspection is deﬁned as a process that
     evaluates, reviews, studies, or analyzes the programs and activities of a department or agency to
     provide information to managers for decision making; make recommendations for improvements
     to programs, policies, or procedures; and identify where administrative action may be necessary.


      Type                                           Number of Reports                         Table Number

      Performance audits                                         7                                 Table 6-a

      Evaluations and inspections                                4                                 Table 6-b

      Total                                                     11
                                                                               Statistical Data               45




TABLE 6-A. PERFORMANCE AUDITS


                                                                   Funds to
                                       Report          Date                             Amount        Amount
Report Title                                                      Be Put to
                                       Number         Issued                           Questioned   Unsupported
                                                                  Better Use

International Trade Administration

Improvements Are Needed to
Strengthen ITA’s Information         OIG-12-037-A   09.27.2012       0                       0          0
Technology Security Program

National Institute of Standards and Technology

Oversight Activities of NIST’s
Recovery Act Construction            OIG-12-028-A   06.01.2012       0                       0          0
Contracts Need Improvement

National Oceanic and Atmospheric Administration

NOAA’s Cost-Plus-Award-Fee and
Award-Term Processes Need to         OIG-12-027-A   05.18.2012   $60,927,455          $43,802,965       0
Support Fees and Extensions

Audit of the Joint Polar Satellite
System: Continuing Progress
in Establishing Capabilities,        OIG-12-038-A   09.27.2012       0                       0          0
Schedules, and Costs Is Needed to
Mitigate Data Gaps

National Telecommunications and Information Administration

NTIA Needs Stronger Monitoring of
BTOP Grant Recipients’ Match         OIG-12-029-A   06.18.2012       0                       0          0

Signiﬁcant IT Security Program
Improvements Are Needed to           OIG-12-035-A   09.07.2012       0                       0          0
Adequately Secure NTIA’s Systems

U.S. Patent and Trademark Ofﬁce

USPTO’s Other Backlog: Past
Problems and Risks Ahead for
                                     OIG-12-032-A   08.10.2012       0                       0          0
the Board of Patent Appeals and
Interferences
46                              Office of Inspector General | Semiannual Report to Congress | September 2012




TABLE 6-B.         EVALUATIONS AND INSPECTIONS

                                                                                           Funds to
                                              Report                   Date                                     Amount        Amount
 Report Title                                                                             Be Put to
                                              Number                  Issued                                   Questioned   Unsupported
                                                                                          Better Use
 Ofﬁce of the Secretary

 Nonfederal Audit Results for
 the 6-Month Period Ending               OIG-12-034-M               08.23.2012             $229,095            $1,209,815     $286,783
 June 30, 2012

 Economics and Statistics Administration

 2020 Census Planning: Delays with
 2010 Census Research Studies May
                                         OIG-12-023-I               04.05.2012                       0                 0            0
 Adversely Impact the 2020 Decennial
 Census

 High-Quality Maps and Accurate
 Addresses Are Needed to Achieve         OIG-12-024-I               05.10.2012                       0                 0            0
 Census 2020 Cost-Saving Goals

 National Telecommunications and Information Administration
 Review of NTIA’s Oversight of the
 Booz Allen Hamilton Contract
                                         OIG-12-031-M                08.09.12                        0                 0            0
 Supporting the Broadband
 Technology Opportunities Program
                                                                                   Statistical Data   47




TABLE 7. SINGLE AUDIT AND PROGRAM-SPECIFIC AUDITS

OIG reviewed and accepted 188 audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs,
recommendations that funds be put to better use, and/or nonﬁnancial recommendations are
listed in table 7-a.


Agency                                                                    Audits

Economic Development Administration                                         34

Minority Business Development Agency                                         1

National Institute of Standards and Technologya                             56

National Oceanic and Atmospheric Administration                             19

National Telecommunications and Information Administrationb                 26

Multi-bureau                                                                49

No Commerce expenditures                                                     3

Total                                                                      188

a Includes   47 program-speciﬁc audits.
b
    Includes 16 program-speciﬁc audits.
48                               Office of Inspector General | Semiannual Report to Congress | September 2012




TABLE 7-A. PROCESSED REPORTS WITH MATERIAL AUDIT FINDINGS


                                                 Report                   Date         Funds to Be Put           Amount        Amount
 Report Title
                                                 Number                  Issued         to Better Use           Questioned   Unsupported

 Economic Development Administration
 Acadiana Regional Development
                                          ATL-09999-12-4446             04.25.12                      0         $150,000            0
 District

 Iosco County                             ATL-09999-12-4551             08.30.12                      0          168,500            0
 North Central Planning and
                                          ATL-09999-12-4417             04.25.12               75,048                 0             0
 Development District, Inc.

 Northern Enterprises, Inc.               ATL-09999-12-4369             04.25.12                      0               0             0
 Southeastern Arizona
                                          ATL-09999-12-4464             06.27.12                      0           33,240            0
 Governments Organization

 Southern Iowa Council of
                                          ATL-09999-12-4444             05.03.12             138,710                  0             0
 Governments and Afﬁliate

 National Institute of Standards and Technology
 Chevron Energy Technology
                                          ATL-09999-12-4371             07.18.12                      0          629,115       49,137
 Company
 ELSXI Corporation                        ATL-09999-12-3842             07.27.12                      0           16,532            0

 Konarka Technologies Inc.                ATL-09999-12-4566             07.26.12                      0          144,717            0

 Pranalytica Inc.                         ATL-09999-12-4108             08.02.12                      0           46,239            0

 SC Solutions Inc.                        ATL-09999-12-4570             07.27.12                      0           30,101            0

 Velcura Therapeutics Inc.                ATL-09999-12-4106             08.02.12                      0          152,945            0

 Velcura Therapeutics Inc.                ATL-09999-12-4107             08.02.12                      0           88,769            0

 XRadia Inc.                              ATL-09999-12-4586             07.31.12                      0          261,300      261,300
 XRadia Inc.                              ATL-09999-12-4547             07.31.12                      0          204,416            0

 National Oceanic and Atmospheric Administration
 Nevada Hospital Association Inc.
                                          ATL-09999-12-4553             08.30.12                      0           12,624            0
 and Afﬁliates
 New Jersey Sea Grant Consortium          ATL-09999-12-4554             08.30.12                      0           15,787            0

 State of Texas                           ATL-09999-12-4485             05.23.12                      0           20,648            0

 State of Washington                      ATL-09999-12-4495             06.27.12                      0          283,503      283,503

 National Telecommunications and Information Administration
 Silver Star Telephone Company,
                                          ATL-09999-12-4310             05.04.12                      0           10,433            0
 Inc.
 Silver Star Telephone Company,
                                          ATL-09999-12-4311             05.04.12                      0           21,799            0
 Inc.
 Virgin Islands Public Finance
                                          ATL-09999-12-4498             08.03.12                      0               0             0
 Authority
                                                                                   Statistical Data   49




TABLE 8. AUDITS UNRESOLVED FOR MORE THAN 6 MONTHS


Census Bureau        Computer & High Tech Management, Inc.
                     In our September 2005 Semiannual Report, we reported the results of
                     audits of 2 of the 21 task orders for IT services that Computer & High
                     Tech Management, Inc., was providing to Census. We sought to determine
                     whether the ﬁrm had complied with contract terms and conditions
                     and federal regulations and had billed Census for work performed in
                     accordance with speciﬁcations of the task order. We found that the ﬁrm
                     failed to comply with numerous contract and federal requirements, which
                     caused us to question more than $10.7 million in direct labor and other
                     reimbursable costs. We have suspended audit resolution on these two
                     audits pursuant to an agreement with Census.


National Institute   Manufacturing Extension Partnership Program
of Standards
                     NIST has not reached resolution on ﬁndings and questioned costs
and Technology
                     identiﬁed in OIG audit reports of the Hollings Manufacturing Extension
                     Partnership program in California. We issued our audit report covering
                     California Manufacturing Technology Consulting in July 2010. We have
                     reported the ﬁndings and questioned costs contained in this report as
                     unresolved in previous Semiannual Reports. NIST intends to resolve this
                     audit by January 31, 2013.


National Oceanic     Alaska Eskimo Whaling Commission
and Atmospheric
                     As reported in our March 2009 Semiannual Report, a single audit review
Administration
                     of this NOAA grant questioned costs totaling $66,353 in expenditures
                     that were not adequately documented. We have suspended audit
                     resolution on this grant audit pursuant to an agreement with NOAA.
50   Office of Inspector General | Semiannual Report to Congress | September 2012




     REPORTING REQUIREMENTS

     The Inspector General Act of 1978, as amended, speciﬁes reporting requirements for
     semiannual reports. The requirements are listed below and indexed to the applicable pages of
     this report.


      Section                     Topic                                                      Page

      4(a)(2)                     Review of Legislation and Regulations                      50

      5(a)(1)                     Signiﬁcant Problems, Abuses, and Deﬁciencies               6-35

      5(a)(2)                     Signiﬁcant Recommendations for Corrective Action           6-35

      5(a)(3)                     Prior Signiﬁcant Recommendations Unimplemented             50

      5(a)(4)                     Matters Referred to Prosecutorial Authorities              40

      5(a)(5) and 6(b)(2)         Information or Assistance Refused                          51

      5(a)(6)                     Listing of Audit Reports                                   45-46

      5(a)(7)                     Summary of Signiﬁcant Reports                              6-35

      5(a)(8)                     Audit Reports—Questioned Costs                             43

      5(a)(9)                     Audit Reports—Funds to Be Put to Better Use                44

      5(a)(10)                    Prior Audit Reports Unresolved                             51

      5(a)(11)                    Signiﬁcant Revised Management Decisions                    51

      5(a)(12)                    Signiﬁcant Management Decisions with Which OIG Disagreed   51

      5(a)(13)                    Results of Peer Review                                     51


     SECTION 4(a)(2): REVIEW OF LEGISLATION AND REGULATIONS

     This section requires the inspector general of each agency to review existing and proposed
     legislation and regulations relating to that agency’s programs and operations. Based on this
     review, the inspector general is required to make recommendations in the semiannual report
     concerning the impact of such legislation or regulations on (1) the economy and efﬁciency of
     the management of programs and operations administered or ﬁnanced by the agency or (2)
     the prevention and detection of fraud and abuse in those programs and operations. Comments
     concerning legislative and regulatory initiatives affecting Commerce programs are discussed, as
     appropriate, in relevant sections of the report.

     SECTION 5(a)(3): PRIOR SIGNIFICANT RECOMMENDATIONS UNIMPLEMENTED

     This section requires identiﬁcation of each signiﬁcant recommendation described in previous
     semiannual reports for which corrective action has not been completed. Section 5(b) requires
     that the Secretary transmit to Congress statistical tables showing the number and value of audit
     reports for which no ﬁnal action has been taken, plus an explanation of why recommended action
     has not occurred, except when the management decision was made within the preceding year.
     However, information on the status of any audit recommendations can be obtained through OIG
     upon request.
                                                                                 Reporting Requirements   51




SECTIONS 5(a)(5) AND 6(b)(2): INFORMATION OR ASSISTANCE REFUSED

These sections require a summary of each report to the Secretary when access, information,
or assistance has been unreasonably refused or not provided. There were no reports to the
Secretary during this semiannual period.

SECTION 5(a)(10): PRIOR AUDIT REPORTS UNRESOLVED

This section requires (1) a summary of each audit report issued before the beginning of the
reporting period for which no management decision has been made by the end of the reporting
period (including the date and title of each such report); (2) an explanation of why a decision has
not been made; and (3) a statement concerning the desired timetable for delivering a decision
on each such report. There are two Census, one NIST, and one NOAA reports more than 6
months old for which no management decision has been made.

SECTION 5(a)(11): SIGNIFICANT REVISED MANAGEMENT DECISIONS

This section requires an explanation of the reasons for any signiﬁcant revision to a management
decision made during the reporting period. Department Administrative Order 213-5, Audit
Resolution and Follow-up, provides procedures for revising a management decision. For
ﬁnancial assistance audits, OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient. There are two appeals this period.

SECTION 5(a)(12): SIGNIFICANT MANAGEMENT DECISIONS WITH WHICH OIG
DISAGREED

This section requires information concerning any signiﬁcant management decision with which
the inspector general disagrees. Department Administrative Order 213-5 provides procedures
for elevating unresolved audit recommendations to higher levels of Department and OIG
management, including their consideration by an Audit Resolution Council. During this period, no
audit issues were referred.

SECTION 5(a)(13): RESULTS OF PEER REVIEW

The most recent peer review of the Ofﬁce of Audit and Evaluation was conducted in 2012 by
the Ofﬁce of Personnel Management (OPM) Ofﬁce of Inspector General. OPM OIG’s System
Review Report of our audit operations is available on our website. We received a pass rating, the
highest available rating. We are implementing all of OPM OIG’s recommendations for process
and policy improvements.

In 2012, we conducted our latest peer review, which examined the National Aeronautics and
Space Administration (NASA) OIG’s audit operations. NASA’s OIG has informed us that it is
implementing the recommendation we made in our review.

The most recent peer review of the Ofﬁce of Investigations was conducted in 2011 by the Ofﬁce
of Personnel Management’s OIG. We received a compliant rating. The ﬁnal report of this peer
review was issued on April 30, 2012.
52                    Office of Inspector General | Semiannual Report to Congress | September 2012




ACRONYMS AND ABBREVIATIONS

ACS      American Community Survey                                    ITA                 International Trade Administration
AEWC     Alaska Eskimo Whaling Commission                             JPSS                Joint Polar Satellite System
AFF      Asset Forfeiture Fund                                        MAF/TIGER Master Address File/Topologically
                                                                                Integrated Geographic Encoding and
AIA      America Invents Act of 2011
                                                                                Referencing
ASAP     Automated Standard Application for
                                                                      MEP                 Manufacturing Extension Partnership
         Payment
                                                                      MTdb                MAF/TIGER database
ATP      Advanced Technology Program
                                                                      NASA                National Aeronautics and Space
BayWEB   San Francisco Bay Area Wireless
                                                                                          Administration
         Enhanced Broadband
                                                                      NESDIS              National Environmental Satellite, Data,
BEA      Bureau of Economic Analysis
                                                                                          and Information Service
BIS      Bureau of Industry and Security
                                                                      NIST                National Institute of Standards and
BPAI     Board of Patent Appeals and                                                      Technology
         Interferences
                                                                      NOAA                National Oceanic and Atmospheric
BTOP	    Broadband Technology Opportunities                                               Administration
         Program
                                                                      NPP                 National Polar-orbiting Partnership

CCI      Comprehensive Community
                                                                      NTIA                National Telecommunications and 

         Infrastructure
                                                                                          Information Administration                    

COTR     contracting ofﬁcer’s technical
                                                                      NWS                 National Weather Service (NOAA)

         representative
                                                                      OIG                 Ofﬁce of Inspector General 

CPAF     cost-plus-award-fee
                                                                      OLE                 Ofﬁce of Law Enforcement (NOAA)

CPAT     cost-plus-award-term
                                                                      OHRM                Ofﬁce of Human Resources 

CPEX     Census Program Evaluation and
                                                                                          Management (Commerce)

         Experiments
                                                                      OMB                 Ofﬁce of Management and Budget 

CS       Commercial Service (ITA)
                                                                      OPM                 Ofﬁce of Personnel Management

DOJ      Department of Justice
                                                                      ORCA                On-Line Representations and 

EDA      Economic Development Administration
                                                                                          Certiﬁcations Application

ESA      Economics and Statistics Administration
                                                                      PCC                 Public Computing Centers

FAR      Federal Acquisition Regulation
                                                                      PSIC                Public Safety Interoperable 

FBI      Federal Bureau of Investigations                                                 Communications

FISMA    Federal Information Security                                 SBA                 Sustainable Broadband Adoption

         Management Act of 2002
                                                                      SCBA                Second Chance Body Armor

FMC      Fishery Management Council
                                                                      SOP                 standard operating procedure

FY       ﬁscal year
                                                                      T&M/LH              Time-and-Materials and Labor-Hour

GAO      Government Accountability Ofﬁce
                                                                      TAAC                Trade Adjustment Assistance Center        

GOES     Geostationary Operational Environmental                                          (EDA)

         Satellite
                                                                      TIP                 Technology Innovation Program

GOES-R   Geostationary Operational Environmental
                                                                      USEAC               U.S. Export Assistance Center (ITA)
         Satellite-R series
                                                                      USPTO               U.S. Patent and Trademark Ofﬁce
IRS      Internal Revenue Service
IT       information technology
U.S. Department of Commerce
Office of Inspector General
1401 Constitution Avenue, NW
Washington, DC 20230

www.oig.doc.gov




                         OUR MISSION

                         To improve the programs and operations of the
                         Department of Commerce through independent
                         and objective oversight.
